TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Controls Over Real Property Management
                 Have Improved; However, Additional Efforts
                  Are Needed to Address Planned Staffing
                                 Increases



                                           July 24, 2009

                              Reference Number: 2009-10-107




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 24, 2009


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES
                IRS CHIEF HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls Over Real Property Management Have
                             Improved; However, Additional Efforts Are Needed to Address
                             Planned Staffing Increases (Audit # 200810017)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is efficiently and effectively managing its office space and whether the IRS has taken
 adequate corrective actions in response to our September 2004 report.1 This review was part of
 the Treasury Inspector General for Tax Administration’s Fiscal Year 2008 Annual Audit Plan
 risk-based coverage under the major management challenge of Using Performance and Financial
 Information for Program and Budget Decisions.

 Impact on the Taxpayer
 As a result of its ongoing space reduction efforts, the IRS has reduced its office space 7 percent
 since 2004. However, the IRS still faces a number of challenges in its ongoing efforts to
 effectively manage its space and associated costs. Most significantly, in February 2009, the IRS
 actively began planning for a hiring initiative which could increase the non-campus staffing by
 as much as 9 percent over the next 2 years. In addition, long-term space planning needs to
 consider the impact of workstation sharing, which could result in $6 million in future annual rent
 savings.




 1
  The Internal Revenue Service Faces Significant Challenges to Reduce Underused Office Space Costing
 $84 Million Annually (Reference Number 2004-10-182, dated September 27, 2004).
                        Controls Over Real Property Management Have Improved;
                          However, Additional Efforts Are Needed to Address
                                       Planned Staffing Increases



Synopsis
In order to improve its ability to effectively manage rent costs and address the issues we
identified in our 2004 report, the IRS implemented two new management information systems.
The two new management information systems allow for ready access to detailed building
information including space measurements, characteristics, usage, and occupancy data, as well as
centralized schedule and cost information regarding in-process space acquisition/reduction
projects. In addition, as a result of its ongoing space reduction efforts, the IRS was able to
reduce its overall non-campus office space2 from 18.5 million square feet at the time of our 2004
report to 17.2 million square feet as of January 2009. This reduction represents an overall space
decrease of 7 percent.
Despite these improvements, the IRS still faces a number of challenges in its ongoing efforts to
effectively manage its space and associated costs. Most significantly, although IRS non-campus
staffing has trended steadily downward since 2004, in February 2009 the IRS actively began
planning for a hiring initiative which is calculated to result in a net increase in staffing of
3,411 employees by September 30, 2009. Approximately 70 percent of those new employees are
currently projected to be housed in non-campus office space. The IRS informed us that they are
planning for an additional similarly sized increase in staffing by September 30, 2010. Although
the IRS has unused office space currently available, additional efforts are needed to ensure the
space related challenges created by this hiring initiative are effectively addressed. For example,
until the IRS develops an overall estimate of planned hiring by location for Fiscal Years 2009
and 2010 and compares this estimate to its existing space, it will be unable to fully plan for the
hiring initiative.
We also found that controls over the IRS’ long-term space planning process need to be
improved. For example, although the IRS identified in December 2008 that it had 600,000
square feet of space that it could eliminate, we found no evidence that the methodology used by
Real Estate and Facilities Management (REFM) Division staff in calculating its long-term space
needs routinely considered the impact of workstation sharing by IRS staff. In our 2004 review,
we similarly identified that the IRS could achieve savings by releasing the space associated with
employees who share workstations as part of the flexi-place program.3 Had REFM Division staff
fully considered the impact of workstation sharing in calculating its anticipated future space
needs, we estimate that $6 million in future annual rent could potentially be saved based on
workstation sharing levels at the time of our review.



2
  The IRS’ non-campus facilities include field offices, the IRS Headquarters building, and a small number of related
facilities such as employee child care centers.
3
  The IRS flexi-place program allows IRS employees, with approval from their managers, the opportunity to work at
home or other approved locations.
                                                                                                                   2
                    Controls Over Real Property Management Have Improved;
                      However, Additional Efforts Are Needed to Address
                                   Planned Staffing Increases


Furthermore, while periodic, building-focused assessments performed by the IRS are a useful
tool and are required by Federal Real Property Council guidelines, the IRS needs to better link
workspace sharing data with both the building assessment process and the resulting space
reduction efforts. In addition, given the changes in non-campus staffing anticipated over the next
2 years, it is critical that the IRS perform a complete reassessment of its long-term non-campus
space requirements.
Finally, we found improvements are needed to ensure the accuracy of key management
information regarding space. In order for the new systems to enable the IRS to effectively track
and monitor space management projects to meet the goal of reducing excess space, the systems
need to have complete and accurate data.

Recommendations
We recommended that the Chief, Agency-Wide Shared Services, in coordination with the IRS
Chief Human Capital Officer, develop an overall estimate of planned hiring by location for
Fiscal Years 2009 and 2010 and compare this estimate to existing space and develop a
comprehensive national policy regarding workstation sharing for flexi-place employees. In
addition, we recommended the Chief, Agency-Wide Shared Services, reevaluate and modify, as
needed, all significant in-process and planned space reduction projects based on the additional
space needs created by the planned hiring initiative, perform a reassessment of the projected
long-term space requirements for non-campus facilities, and revise the IRS’ overall space
utilization goal to 85 percent. The Chief, Agency-Wide Shared Services, should also develop
procedures requiring that future building level space needs assessments include the documented
consideration of the impact of workstation sharing and be periodically reconciled to agency-wide
projected staffing levels. Finally, we recommended the Director, REFM, reinforce the need for
field managers to perform periodic validations of space data, further expand guidance to require
that the information from the validations be evaluated on an ongoing basis to identify error
trends, and require the space project tracking system be updated to include key information for
significant in-process projects.

Response
IRS management agreed with all of our recommendations. The IRS is in the process of
capturing information to identify sites where space deficiencies exist and formulating housing
solutions. In addition, the IRS plans to develop a telework (flexi-place) policy that will address
shared workstations for telework employees. The IRS has also begun to revise the asset
management plans for all non-campus buildings to reflect the impact of the hiring initiative.
This includes communicating new strategies with the REFM Division Territories and validating
projects in progress. The IRS will develop procedures to document the consideration of
workstation sharing in each building’s asset management plan and develop procedures to
                                                                                                     3
                    Controls Over Real Property Management Have Improved;
                      However, Additional Efforts Are Needed to Address
                                   Planned Staffing Increases


annually reconcile the aggregate asset management plan’s staffing projections against total
agency-wide projected staffing levels. The IRS will establish an overall space utilization goal of
85 percent as measured by the percentage of workstations utilized for non-campus buildings.
The IRS has also issued a memorandum to formalize the recurring validation of space data and
will compile and analyze error trend and accuracy rate data and issue reports, findings, and
guidance to the Territories as necessary. Lastly, the IRS updated the nine significant in-progress
rent reduction projects in the space project tracking system to include project schedules, overall
project costs, and projected rent savings as appropriate. Management’s complete response to the
draft report is included in Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                 4
                           Controls Over Real Property Management Have Improved;
                             However, Additional Efforts Are Needed to Address
                                          Planned Staffing Increases




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Both Short-Term and Long-Term Space Planning Efforts
          Could Be Enhanced.......................................................................................Page 3
                    Recommendation 1:........................................................Page 7

                    Recommendations 2 through 5: ................................................ Page 8

          Management Information Regarding Real Property Has
          Been Enhanced; However, Improvements Are Needed to
          Ensure Data Accuracy...................................................................................Page 9
                    Recommendations 6 and 7: ..............................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 19
       Controls Over Real Property Management Have Improved;
         However, Additional Efforts Are Needed to Address
                      Planned Staffing Increases




                   Abbreviations

ePIP         Electronic Project Investment Process
GDI          Graphic Database Interface system
IRS          Internal Revenue Service
REFM         Real Estate and Facilities Management
                       Controls Over Real Property Management Have Improved;
                         However, Additional Efforts Are Needed to Address
                                      Planned Staffing Increases




                                           Background

Federal agencies are confronted with difficult challenges in managing their office space needs.
They must effectively integrate the Federal Government’s budget process, anticipate hiring and
retirement/separation trends, continually adjust to changes in the real estate market, and
implement space acquisition/reduction processes which require significant planning and
intensive oversight. In addition, accounting for these variables may not always result in
obtaining optimal additional space or reducing space in the time period needed.
Rental costs represent one of the largest nonpayroll expenditures of the Internal Revenue Service
(IRS). In Fiscal Years 2007 and 2008, total rent costs were $633 million and $629 million,
respectively. The majority of the space the IRS rents is used for its non-campus facilities. The
IRS’ non-campus facilities include field offices, the IRS Headquarters building, and a small
number of related properties such as employee child care centers. The Agency-Wide Shared
Services function has overall responsibility for space management. Within the Agency-Wide
Shared Services function, the Real Estate and Facilities Management (REFM) Division provides
space management support to all entities in the IRS.
In September 2004, the Treasury Inspector General for Tax Administration reviewed1 the IRS’
management of its office space. This review identified that the IRS incurs significant costs for
rental space it no longer uses. The review also identified that the target utilization rate2 used by
the IRS for identifying unneeded space was not correctly calculated and as a result was too high.
In addition, the review identified that the IRS does not maintain a centralized database of
employees who are participating in flexi-place3 and, therefore, can share workstations. Finally,
the report identified that the IRS did not consistently compile building usage information or
periodically validate the data.
Since our September 2004 review, the Office of Management and Budget’s Federal Real
Property Council has issued new guidance for asset management. This guidance requires each
agency to identify and categorize all their real property, prioritize actions to be taken to improve
the management of the property, and develop an Asset Management Plan. Each Asset
Management Plan must include an accurate inventory and description of all assets and promote
appropriate utilization. Agencies must also identify goals, with appropriate deadlines, that are
consistent with and supportive of the agency’s asset management plan. In support of this


1
  The Internal Revenue Service Faces Significant Challenges to Reduce Underused Office Space Costing
$84 Million Annually (Reference Number 2004-10-182, dated September 27, 2004).
2
  The utilization rate is the number of square feet rented divided by the number of people assigned to the space.
3
  The IRS flexi-place program allows IRS employees, with approval from their managers, the opportunity to work at
home or other approved locations.
                                                                                                         Page 1
                   Controls Over Real Property Management Have Improved;
                     However, Additional Efforts Are Needed to Address
                                  Planned Staffing Increases


process, the IRS developed its own Asset Management Plan policy guidance in May 2005. This
guidance outlines the principles and procedures governing the development of individual Asset
Management Plans for the buildings the IRS occupies. In May 2008, additional guidance was
issued which further clarified the IRS’ asset management policies.
This review was performed at REFM Division Headquarters office in Arlington, Virginia. The
review was also performed at the REFM Division field offices in Plantation, Florida;
Atlanta, Georgia; Chicago, Illinois; Cherry Hill and Springfield, New Jersey; Cincinnati and
Independence, Ohio; Philadelphia, Pennsylvania; Providence, Rhode Island; and Austin, Texas,
during the period February 2008 through February 2009. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                    Controls Over Real Property Management Have Improved;
                      However, Additional Efforts Are Needed to Address
                                   Planned Staffing Increases




                                 Results of Review

Overall, we found that controls over real property management have improved since our review
in 2004. Specifically, the IRS implemented two new management information systems to allow
for ready access to detailed building information including space measurements, characteristics,
usage, and occupancy data, as well as centralized schedule and cost information regarding
in-process space acquisition/reduction projects. In addition, as a result of its ongoing space
reduction efforts, the IRS was able to reduce its overall non-campus office space from
18.5 million square feet at the time of our 2004 report to 17.2 million square feet as of
January 2009. This reduction represents an overall space decrease of 7 percent.
Despite these improvements, the IRS still faces a number of challenges in its ongoing efforts to
effectively manage its space and associated costs. Most significantly, although IRS non-campus
staffing has trended steadily downward since 2004, in February 2009 the IRS actively began
planning for a hiring initiative which is calculated to result in a net increase in staffing of
3,411 employees by September 30, 2009. Approximately 70 percent of those new employees are
projected to be housed in non-campus office space. By hiring thousands of employees, the IRS
plans to enhance taxpayer compliance and move forward on its emerging strategic priorities. For
example, some of these positions will be dedicated to increasing compliance in international and
offshore initiatives. The IRS informed us that they are planning for a similarly sized increase in
staffing by September 30, 2010. As a result of this hiring initiative IRS non-campus staffing
could increase as much as 9 percent over the next 2 years.
Although the IRS has unused space currently available, additional efforts are needed to ensure
the space related challenges created by this hiring initiative are effectively addressed. If the IRS
does not effectively address these challenges, delays could potentially occur in the hiring of new
employees due to the lack of available space. In addition, controls over the IRS’ space planning
process need to be enhanced, and improvements are needed to ensure the accuracy of key
management information regarding space.

Both Short-Term and Long-Term Space Planning Efforts Could Be
Enhanced
As stated previously, effective space management in the Federal Government is especially
challenging given the many variables that must be considered and the difficulties in determining
precise estimates for these variables over the long-term. In making this determination, the IRS
needs to take into account historical trends in hiring, retirements, and other employee separations




                                                                                              Page 3
                      Controls Over Real Property Management Have Improved;
                        However, Additional Efforts Are Needed to Address
                                     Planned Staffing Increases


as well as anticipated future needs. For example, the IRS Workforce of Tomorrow study4
identified that the IRS faces a significant challenge in replacing the employees it is expected to
lose to attrition during the next 5 years.

Prior to the hiring initiative more office space was rented than needed
In September 2004, we reported that the IRS incurred significant rent costs for space it does not
need and that the IRS’ target space utilization rate of 265 square feet per person was too high. In
order to address this condition, we recommended a 252 square feet per person target utilization
rate. At the time of the 2004 review, the IRS had an actual utilization rate of 312 square feet per
person, which significantly exceeded both its own target and our recommended target. In
January 2009, we found that the average square footage per person actually increased from 312
in March 2004 to 319 in 2009 despite the IRS reducing its overall non-campus office space from
18.5 million square feet to 17.2 million square feet during the same period. This occurred
because decreases in IRS’ staffing have occurred at a faster pace than its space reduction efforts.
When we initiated our current audit, the IRS advised us that they no longer use square footage
based utilization rates and have instead established Percent of Workstations Utilized as their
overall strategic measure. The IRS established this measure in 2008 and set an overall goal of
75 percent occupied. The IRS’ goal for Fiscal Year 2009 remained at 75 percent occupied.
Federal Real Property Council guidelines state that more than 95 percent occupied is considered
overutilized and less than 75 percent occupied is considered underutilized, making the suggested
range between 75 and 95 percent occupied. The Guidelines also state that it is up to each agency
to determine the most appropriate unit of measure for occupancy and design capacity.
In December 2008, the IRS reported the actual Percent of Workstations Utilized was 68 percent.
Our analysis indicates that the results reported are slightly underreported because not all people
were assigned to a specific workstation at the time this result was reported. The REFM Division
estimates the actual occupancy rate is closer to 74 percent. However, even at its target
occupancy of 75 percent occupied, IRS would still have 17,414 empty workstations nationwide,
which we believe is too much given the historically declining staffing trend and non-campus
staffing of approximately 54,000.
Toward the conclusion of our audit, the IRS began a hiring initiative which will change the IRS’
future space needs. Our calculations indicate that the planned hiring initiative could result in an
increase of IRS’ occupancy rate to as much as 77 percent by the end of Fiscal Year 2009 and to
as much as 81 percent by the end of Fiscal Year 2010.5 In our opinion, a goal of 85 percent
occupied represents a more reasonable balance between the IRS’ need to maintain sufficient
excess space to support additional hiring while still minimizing costs than the IRS’ current goal


4
 Planning a Dynamic People Strategy (IRS Workforce of Tomorrow Task Force report, dated December 10, 2008).
5
 These percentage estimates are based on the assumption that the newly hired employees are placed in existing,
vacant workstations.
                                                                                                       Page 4
                        Controls Over Real Property Management Have Improved;
                          However, Additional Efforts Are Needed to Address
                                       Planned Staffing Increases


of 75 percent. Although the IRS may very well achieve an occupancy rate approaching
85 percent in Fiscal Year 2010, by revising its overall goal to 85 percent it will be better
positioned to guide its long-term space planning efforts.

Additional efforts are needed to address the hiring initiative
To ensure it is adequately prepared to address the hiring initiative, we believe the IRS needs to
take two key steps. First, although the IRS clearly has sufficient space overall to accommodate
the hiring initiative, the REFM Division needs to determine whether the space it has available is
in the locations where the hiring will most likely occur. As of April 2009, the IRS had
determined only the occupations in which it planned to hire and had not fully estimated in what
locations the hiring will occur. Some of the occupations in which the IRS plans to hire include
the revenue agent6 and revenue officer7 positions. Identifying the amount of hiring by location
would be the responsibility of the business units, not the REFM Division.
Second, the REFM Division needs to reevaluate its in-process and planned space reduction
projects in light of the additional space needs created by the hiring initiative. Until the IRS
develops an overall estimate of planned hiring by location for Fiscal Years 2009 and 2010 and
compares this estimate to its existing space, it will be unable to fully plan for the hiring initiative.
As a result, the IRS is at risk of not having sufficient space available in the correct locations to
adequately accommodate all of the new employees it plans to hire.

Long-term space planning could be enhanced
Controls over the IRS’ long-term space planning process could also be enhanced. Although the
IRS identified in December 2008 that it had 600,000 square feet of space that it could eliminate,
we found no evidence that the methodology used by REFM Division staff in calculating its
long-term space needs routinely considered the impact of workstation sharing. In our 2004
review, we similarly identified that the IRS could achieve savings by releasing the space
associated with employees who share workstations as part of the flexi-place program. In
response to that report, the IRS agreed to implement a nationwide system to track employees in
the flexi-place program and provide guidance regarding the consideration of flexi-place
participation during space planning. The IRS flexi-place program consists of three levels of
involvement: 1) occupational flexi-place where an employee works full time from a location
other than the traditional office; 2) situational-recurring flexi-place where an employee works up
to 80 hours per month, on a regular schedule, at a location other than the traditional office; and
3) situational-nonrecurring flexi-place where an employee works up to 80 hours per month, on
an ad hoc basis, at a location other than the traditional office.


6
  Revenue agents examine and audit the financial records of corporate and individual taxpayers, helping to ensure
that these taxpayers pay the appropriate taxes and comply with Federal tax laws.
7
  Revenue officers are responsible for collecting delinquent taxes and tax returns.
                                                                                                            Page 5
                       Controls Over Real Property Management Have Improved;
                         However, Additional Efforts Are Needed to Address
                                      Planned Staffing Increases


Although the IRS did implement a flexi-place program tracking system and also tracks people
who share workstations, we were unable to substantiate that this information is routinely and
fully considered in calculating future space needs or identifying potential areas for space
reductions. For example, the building specific Asset Management Profiles, which the REFM
Division uses to document its analysis of current and future space strategies for all non-campus
real property, have no provisions to either record data about workstation sharing or include this
data in the overall calculation of future space needs. The Asset Management Profiles do,
however, document numerous other detailed data elements used in the calculation of future space
needs such as the number of visitor workstations needed and the number of seasonal employees.
Asset Management Plan policy guidance regarding long-term space planning similarly does not
provide clear instruction as to specifically how shared workstations should be considered in
evaluating future space needs. In addition, although the IRS developed a National Shared
Workspace Initiative panel to evaluate workstation sharing initiatives, the REFM function’s
ability to accurately factor workstation sharing into its long range space planning is also
compromised by the lack of a current comprehensive national policy regarding 1) the instances
when workstation sharing is appropriate for employees participating in flexi-place and 2) the
appropriate ratio of flexi-place employees to a shared workstation. The IRS informed us that the
current National Agreement with the National Treasury Employees Union, which will be
effective August 2009, does not specifically require workstation sharing by employees
participating in the flexi-place program. The National Agreement in place at the time of our
review in 2004 did include a requirement that employees participating in a full-time
telecommuting agreement give up individually assigned workspace and instead work in a
common work area in a ratio of not less than three employees to one workstation. Until IRS
management clarifies its current policy regarding workstation sharing and ensures the National
Treasury Employees Union is in agreement with this policy, it will be unable to effectively
realize the potential cost savings available as a result of its flexi-place program.
In January 2009, the IRS had a total of 3,557 non-campus employees participating in
occupational flexi-place, 8,779 employees participating in situational-recurring flexi-place, and
7,404 employees participating in situational-nonrecurring flexi-place. The Graphic Database
Interface (GDI) system, the IRS’ real property management system, indicated there were
4,7858 persons in non-campus facilities who were sharing workstations during approximately the
same time. Had REFM Division staff routinely considered the impact of existing workstation
sharing in calculating its long-term space needs we estimate that $6 million in future annual rent
could be saved based on workstation sharing levels and current square footage rent costs at the
time of our review.




8
 The 4,785 individuals identified in the GDI system as sharing workstations include all persons who share a
workstation for any reason.
                                                                                                              Page 6
                      Controls Over Real Property Management Have Improved;
                        However, Additional Efforts Are Needed to Address
                                     Planned Staffing Increases


We also believe that controls over the IRS’ long-term space planning efforts could be enhanced
by periodically reconciling the building level staffing estimates used in the development of
future space needs to projected agency-wide staffing to validate their reasonableness. The
control would assist the IRS in ensuring the reliability of planning assumptions on which the
building level space needs assessments are based. In response to a February 2009 Treasury
Inspector General for Tax Administration report on recruiting,9 the IRS agreed to develop long-
term hiring goals and projected attrition rates which, when completed, should significantly assist
in the IRS’ long-term space planning.
Periodic building-focused assessments performed by the IRS are a useful tool and are required
by Federal Real Property Council guidelines. However, if the IRS is going to effectively plan for
its future space requirements, it needs to enhance controls over its building assessment process
and the space reduction efforts that are developed as a result of this process. In addition, given
the significant increases in non-campus staffing anticipated over the next 2 years, it is critical
that the IRS perform a complete reassessment of its long-term non-campus space requirements.
Effective space reduction is a difficult task complicated by numerous factors, such as the cost to
reconfigure consolidated space, the length of existing lease terms, and the overall availability of
space within a given geographic location. However, until the IRS 1) improves the process it uses
for its long-term space planning and 2) performs a complete reassessment of its long-term space
needs as a result of the current hiring initiative, it is at risk of not effectively addressing excess
space. Improving the process and completing the reassessment will allow the IRS to make better
use of taxpayer dollars, while still providing people with sufficient workspace to carry out their
day-to-day tax administration duties.

Recommendations
The Chief, Agency-Wide Shared Services, in coordination with the IRS Chief Human Capital
Officer, should:
Recommendation 1: Develop an overall estimate of planned hiring by location for
Fiscal Years 2009 and 2010 and compare this estimate to its existing space in order to identify
potential gaps in space availability.
        Management’s Response: The IRS agreed with this recommendation. For
        Fiscal Year 2009, the IRS is using a variety of tools to estimate and monitor planned
        hiring by location and capture that information to itemize hiring projections and space
        availability by building. This will enable the IRS to identify sites where space
        deficiencies exist and to formulate housing solutions.



9
 An Agency-Wide Recruitment Strategy and Effective Performance Measures Are Needed to Address Future
Recruiting Challenges (Reference Number 2009-10-025, dated February 23, 2009).
                                                                                                       Page 7
                    Controls Over Real Property Management Have Improved;
                      However, Additional Efforts Are Needed to Address
                                   Planned Staffing Increases


Recommendation 2: Develop a comprehensive national policy regarding 1) the instances
when workstation sharing is appropriate for employees participating in the flexi-place program
and 2) the appropriate ratio of flexi-place employees to a shared workstation. Development and
implementation of this policy should be coordinated with the National Treasury Employees
Union.
       Management’s Response: The IRS agreed with this recommendation. Development
       of a telework policy is currently underway by the IRS Chief Human Capital Officer. The
       policy will address shared workstations for telework (flexi-place) employees.
The Chief, Agency-Wide Shared Services, should:
Recommendation 3: Reevaluate and modify, as needed, all significant in-process and
planned space reduction projects based on the additional space needs created by the planned
hiring initiative and perform a reassessment of the projected long-term space requirements for
non-campus facilities.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       began addressing this recommendation in May 2009, when the Real Estate Portfolio staff
       started revising asset management plans for all non-campus buildings to reflect the
       impact of the hiring initiative. This reassessment includes communicating new strategies
       with REFM Division Territories and validating projects in progress. Three of the nine
       significant in-process space reduction projects reviewed in this audit are only minimally
       impacted by the hiring initiative, while the scopes of work for the remaining six projects
       have been revised accordingly.
Recommendation 4: Develop procedures requiring that building level projected space needs
assessments 1) include the documented consideration of the impact of workstation sharing and
2) be periodically reconciled in total to agency-wide projected staffing levels in order to validate
the reasonableness of the staffing estimates used in the building level estimates. When
implementing these procedures, the IRS should adjust its space needs to reflect workstation
sharing and take action to release any unneeded space identified, where appropriate.
       Management’s Response: The IRS agreed with this recommendation. The REFM
       Division will develop procedures to document the consideration of workstation sharing in
       each building’s asset management plan. The IRS will also develop procedures to
       annually reconcile its aggregate asset management plan’s staffing projections against
       total agency-wide projected staffing levels.
Recommendation 5: Revise the IRS’ overall space utilization goal to 85 percent.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       establish an overall space utilization goal of 85 percent as measured by the percentage of
       workstations utilized for non-campus buildings.


                                                                                              Page 8
                         Controls Over Real Property Management Have Improved;
                           However, Additional Efforts Are Needed to Address
                                        Planned Staffing Increases


Management Information Regarding Real Property Has Been
Enhanced; However, Improvements Are Needed to Ensure Data
Accuracy
The Standards for Internal Control in the Federal Government10 state that managers need
reliable and timely operational data to ensure the effective use of resources. These standards also
require the periodic validation of operational data to ensure reliability. To improve the
management of its real property space, the IRS implemented the GDI system. The GDI system
provides REFM Division employees with access to building and property information, space
measurements, space characteristics, and usage and occupancy data. The GDI system is also the
data source for many REFM Division measures/performance metrics.
In addition, the IRS implemented the Electronic Project Investment Process (ePIP) system to
improve management oversight and accountability over space projects. The ePIP system is a
web-based application that is designed to provide immediate access to complete and current
information regarding all ongoing projects. The ePIP system also supports the tracking of
project-related costs and is designed to provide data to support performance metrics using
measures such as adherence to project schedule dates and accuracy of cost estimates. The ePIP
system also supports the calculation of projected annual savings and total project cost to assist in
analyzing project viability.
While these new systems do improve the IRS’ ability to manage its real property, we identified
inaccuracies in both systems. For the new systems to enable the IRS to effectively track and
monitor space management projects to meet the goal of reducing excess space, the systems need
to have complete and accurate data. Conversely, inaccurate data may cause management to
make incorrect decisions regarding space planning.

Validations of GDI system data need to be routinely performed
Our review identified that 37 (11 percent) of 338 randomly sampled workstations from GDI
system records contained inaccuracies. The inaccuracies included 24 workstations (7 percent)
identified as vacant that were actually occupied, and 11 workstations (3 percent) identified as
occupied that were actually vacant. In addition, space type information was misclassified
regarding 2 workstations (1 percent). For example, a space classified as a private office per the
GDI system was actually a conference room, and spaces classified as workstations per the GDI
system were actually either small support areas or areas being used to store equipment or
reference material and generally could not serve as workstations.
In addition, we judgmentally selected 330 workstations during our onsite reviews and compared
them to GDI system records as a second test of the GDI system’s accuracy and completeness and


10
     Standards for Internal Control in the Federal Government (GAO AIMD-00-21.3.1, dated November 1999).
                                                                                                      Page 9
                          Controls Over Real Property Management Have Improved;
                            However, Additional Efforts Are Needed to Address
                                         Planned Staffing Increases


identified that 26 (8 percent) of these records also contained similar significant inaccuracies.
The inaccuracies included 10 workstations (3 percent) identified as vacant that were actually
occupied, and 7 workstations (2 percent) identified as occupied that were actually vacant. In
addition, space type information was misclassified regarding 9 workstations (3 percent).
During our onsite reviews of three REFM territories,11 we found that key information in the GDI
system, such as workstation occupancy and room type, was either not subject to routine, periodic
review or, if reviewed, the review results were not tracked to identify error trends and accuracy
rates. Although the Agency-Wide Shared Services function has developed procedures requiring
that field program managers perform quarterly validations, managers we interviewed were not
always aware of the procedures. In addition, the procedures do not require that the information
from the reviews be evaluated to identify error trends and track accuracy rates.
Periodic validations are critical to ensuring that data discrepancies are timely identified and
resolved and accurate information is maintained. During our audit fieldwork, the REFM
Division took a number of actions to enhance controls over the accuracy of its management
information, including providing additional guidance on the classification of workstations in the
GDI system and additional guidance on the type of information that should be reviewed during
the GDI system validations. While both of these efforts should help in improving the validation
process and the accuracy of data in the GDI system, we believe that additional guidance is still
needed to ensure that an ongoing analysis of the review results is performed to identify error
trends and track accuracy rates.

Additional efforts are needed to ensure in-process project information is
completely migrated to the ePIP system
Our review of nine large ongoing rent reduction projects identified that key information needed
to effectively manage the projects had not always been entered into the ePIP system. The IRS
informed us that all future projects will have complete data added to the ePIP system but that
only partial data were added for the in-process projects due to resource concerns. At the time of
our audit fieldwork, these 9 projects represented the population of all projects where the amount
of space to be released was greater than 10,000 square feet each and were scheduled to be
completed in Fiscal Year 2009 or 2010. For these nine projects, we found:
•      The project schedule or information regarding the current status of the project was not
       entered into the ePIP system for eight projects, which hampers the IRS’ ability to readily
       track the project through all stages of the project lifecycle and analyze its performance.
•      Estimated total project cost and anticipated rent savings associated with the project were not
       entered into the ePIP system for four projects. Without this information, the IRS cannot



11
     The REFM Division is divided into 14 geographical areas called territories.
                                                                                              Page 10
                    Controls Over Real Property Management Have Improved;
                      However, Additional Efforts Are Needed to Address
                                   Planned Staffing Increases


   subsequently evaluate the performance of the project in terms of rent savings or the accuracy
   of the original estimates on which the project was based.
As a result, REFM Division management must review both the pre-ePIP project file and the
limited case file on the ePIP system in order to fully monitor the status of all ongoing projects.
Incomplete information regarding current projects significantly diminishes the ability of the ePIP
system to serve as a basis for the calculation of key performance metrics such as the accuracy of
the cost estimates on which the project was based. In addition, management’s ability to readily
monitor the overall status of its space reduction efforts is compromised because the review of
information regarding all ongoing projects requires the cumbersome analysis of data from two
different sources.
At the time of our review, seven of the nine projects still had a significant amount of work to be
done before completion and as such would benefit from having accurate and complete
information necessary for effective financial management included as part of the ePIP system.
The IRS estimated the annual savings for the 9 projects we reviewed at $3.4 million.

Recommendations
The Director, REFM, should:
Recommendation 6: Reinforce the need for field managers to perform periodic validations of
GDI system data, further expand guidance to require that the information from the reviews be
evaluated on an ongoing basis to identify error trends and track accuracy rates, and correct the
inaccuracies we identified.
       Management’s Response: The IRS agreed with this recommendation. A
       memorandum to formalize the recurring validation of GDI system data was issued
       May 20, 2009. All REFM Division Territories are required to develop an annual plan for
       quarterly validation of GDI data and the plan will ensure approximately one-eighth of a
       Territory’s inventory is validated each quarter. Each Territory will certify their
       completed validations and submit the results for review and analysis. Required
       documentation includes relevant building and space details, review findings, and planned
       corrective actions. The REFM Division will compile and analyze GDI system error trend
       and accuracy rate data and issue reports, findings, and guidance to the Territories, as
       necessary. Shortly after receiving the results of our GDI system data accuracy reviews,
       the IRS began correcting all inaccuracies identified and has completed this process.
Recommendation 7: Ensure the ePIP system is updated to include key information such as
project schedules and estimated overall project cost and project rent savings for the nine
significant in-process projects we identified.
       Management’s Response: The IRS agreed with this recommendation. The nine
       significant in-progress rent reduction projects have been updated in the ePIP system and

                                                                                           Page 11
            Controls Over Real Property Management Have Improved;
              However, Additional Efforts Are Needed to Address
                           Planned Staffing Increases


now include project schedules, overall project costs, and projected rent savings as
appropriate.




                                                                                      Page 12
                       Controls Over Real Property Management Have Improved;
                         However, Additional Efforts Are Needed to Address
                                      Planned Staffing Increases


                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is efficiently and
effectively managing its office space and whether the IRS has taken adequate corrective actions
in response to our September 2004 report.1 To accomplish this objective, we:
I.      Determined the amount of office space the IRS currently leases and the number of
        employees housed in that space.
        A. Identified the costs and amounts of rented space used by the IRS.
        B. Identified the projected future costs and amount of rented space needed by the IRS.
        C. Determined the actual utilization rate for IRS office space.
II.     Determined whether management information used by the IRS to monitor ongoing efforts
        to reduce underused office space and achieve cost savings is adequate. We selected and
        reviewed a 100 percent sample of the 9 approved rent reduction projects, where 10,000 or
        more square feet were to be released by the end of Fiscal Year 2010.
III.    Evaluated the corrective actions implemented by the IRS in response to the Treasury
        Inspector General for Tax Administration’s September 2004 report to determine whether
        the IRS effectively and efficiently manages their office space.
        A. Identified the IRS’ plans and strategies for releasing unused space and reviewed the
           specific details on costs, savings, and benefits.
        B. Randomly selected 3 out of the 14 REFM Division territories and visited 11 buildings
           near the territory offices to determine whether building usage data are now being
           reported consistently. We visited buildings in Plantation, Florida; Atlanta, Georgia;
           Cherry Hill, New Jersey; Cincinnati and Independence, Ohio; and
           Philadelphia, Pennsylvania. We used data provided by the IRS from the GDI system2
           and selected a random sample of workstations and offices to visit, verifying 338 out
           of 5,137 workstations at 11 buildings. In addition, we judgmentally selected



1
  The Internal Revenue Service Faces Significant Challenges to Reduce Underused Office Space Costing
$84 Million Annually (Reference Number 2004-10-182, dated September 27, 2004).
2
  The GDI system provides REFM Division employees with access to building and property information, space
measurements, space characteristics, and usage and occupancy data. The GDI system is also the data source for
many REFM Division measures/performance metrics.

                                                                                                        Page 13
                    Controls Over Real Property Management Have Improved;
                      However, Additional Efforts Are Needed to Address
                                   Planned Staffing Increases


           330 workstations during our onsite reviews and compared them to GDI system
           records.
       C. Determined whether the REFM Division GDI system is providing the needed data to
          track specific workstation information regarding the location, occupancy, size, and
          attributable business units.
       D. Determined whether the IRS has implemented a flexi-place tracking system to track
          telecommuting employees for the purpose of identifying additional excess space for
          release where appropriate.
       E. Evaluated any changes the IRS has made to target utilization rates since our review in
          2004.
As part of our evaluation of the IRS’ management of its space, we reviewed computer-processed
data from the GDI system, which was developed to promote effective asset and information
stewardship for the rent management processes. To assess the reliability of these data, we tested
for missing data and values outside expected ranges.
We also compared GDI system data with workstations onsite to test for completeness and further
validate our results. In addition, we evaluated the operation of controls over the accuracy of this
data. This testing did identify some weaknesses in both the accuracy of the data regarding
workstation occupancy status and type, as well as in the controls designed to assure its validity.
The effect of these weaknesses is discussed in detail in the second finding within the report.
Because the GDI system is the only source of information available on workstation occupancy,
which is a key strategic measure, we did utilize information from this system in our report and
outcome measure. However, when this information is presented, we note the impact of the
weakness we identified on its accuracy. In addition, our outcome measure has been adjusted to
reflect IRS personnel not assigned to a specific workstation so as not to overstate the amount.




                                                                                           Page 14
                  Controls Over Real Property Management Have Improved;
                    However, Additional Efforts Are Needed to Address
                                 Planned Staffing Increases


                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Anthony J. Choma, Audit Manager
Kevin P. Riley, Audit Manager
Susan A. Price, Lead Auditor
Tom J. Cypert, Senior Auditor
Stephen E. Holmes, Auditor
Kanika Kals, Auditor




                                                                                  Page 15
                  Controls Over Real Property Management Have Improved;
                    However, Additional Efforts Are Needed to Address
                                 Planned Staffing Increases


                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Agency-Wide Shared Services OS:A
                 Human Capital Officer OS:HC




                                                                       Page 16
                    Controls Over Real Property Management Have Improved;
                      However, Additional Efforts Are Needed to Address
                                   Planned Staffing Increases


                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings – Funds Put to Better Use – Potential; $6 million per year; $30 million over a
    5-year period. This represents rent costs that could be avoided if the IRS considers the
    impact of workspace sharing in calculating its anticipated future space needs (see page 3).

Methodology Used to Measure the Reported Benefit:
To estimate the funds that could be put to better use, we determined the existing workstation
sharing level as indicated in the GDI system of 4,785 persons sharing 2,063 workstations. We
then calculated the difference between the number of workstations required for the 4,785 persons
as a result of this sharing (2,063 workstations) and the number of workstations required for
4,785 persons if sharing is not considered (4,785 workstations). The difference is
2,722 workstations (4,785 workstations – 2,063 workstations). We then calculated the cost of an
average workstation using an estimate of the average space occupied by a workstation provided
by the IRS REFM Division. The average cost of rentable square feet of non-campus space is
$24.16. Multiplying the average workstation size of 90 square feet by the average cost of
$24.16 per square foot gives a cost per workstation of $2,174. Multiplying $2,174 by the
calculated workstation sharing difference of 2,722 shows an annual cost savings of
approximately $6 million a year.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; records regarding 63 workstations (see page 9).

Methodology Used to Measure the Reported Benefit:
Our review found that 37 (11 percent) of 338 randomly sampled workstations from GDI system
records contained significant inaccuracies. The inaccuracies included: 24 workstations
(7 percent) identified as vacant which were actually occupied and 11 workstations (3 percent)
identified as occupied which were actually vacant. In addition, space type information was
misclassified regarding 2 workstations (1 percent). For example, a space classified as a private
office per the GDI system was actually a conference room, and spaces classified as workstations

                                                                                           Page 17
                    Controls Over Real Property Management Have Improved;
                      However, Additional Efforts Are Needed to Address
                                   Planned Staffing Increases


per the GDI system were actually either small support areas or areas being used to store
equipment or reference material and generally could not serve as workstations.
In addition, we judgmentally selected 330 workstations during our onsite reviews and compared
them to GDI system records as a second test of the GDI system’s accuracy and completeness and
identified that 26 (8 percent) of these records also contained similar significant inaccuracies.
The inaccuracies included: 10 workstations (3 percent) identified as vacant which were actually
occupied and 7 workstations (2 percent) identified as occupied which were actually vacant. In
addition, space type information was misclassified regarding 9 workstations (3 percent).




                                                                                           Page 18
      Controls Over Real Property Management Have Improved;
        However, Additional Efforts Are Needed to Address
                     Planned Staffing Increases


                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 19
Controls Over Real Property Management Have Improved;
  However, Additional Efforts Are Needed to Address
               Planned Staffing Increases




                                                  Page 20
Controls Over Real Property Management Have Improved;
  However, Additional Efforts Are Needed to Address
               Planned Staffing Increases




                                                  Page 21
Controls Over Real Property Management Have Improved;
  However, Additional Efforts Are Needed to Address
               Planned Staffing Increases




                                                  Page 22
Controls Over Real Property Management Have Improved;
  However, Additional Efforts Are Needed to Address
               Planned Staffing Increases




                                                  Page 23
Controls Over Real Property Management Have Improved;
  However, Additional Efforts Are Needed to Address
               Planned Staffing Increases




                                                  Page 24
